Nos. 19-840, 19-1019

IN THE

'upreme Court of the Ettitel3 atateo
STATE OF CALIFORNIA, et al.,
Petitioners,
v.
STATE OF TEXAS, et al.,
Respondents.
STATE OF TEXAS, et al.,
Petitioners,
v.
STATE OF CALIFORNIA, et al.,
Respondents.
On Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit

BRIEF OF NATIONAL HOSPITAL ASSOCIATIONS
AS AMICI CURIAE IN SUPPORT OF THE
CALIFORNIA STATE COALITION AND
HOUSE OF REPRESENTATIVES

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,153 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

